OIG Audit Report 01-14
Return to the USDOJ/OIG Home Page
Federal Bureau of Investigation
Annual Financial StatementFiscal Year 2000
Report No. 01-14
May 2001
Office of the Inspector General
OFFICE OF THE INSPECTOR GENERAL
COMMENTARY AND SUMMARY
The Federal Bureau of Investigation (FBI) has investigative jurisdiction over violations of more than 200 categories of federal crimes.  Its five priority programs are counterterrorism, drugs/organized crime, foreign counterintelligence, violent crimes, and white-collar crimes.  The FBI maintains 56 field offices, approximately 400 resident agencies, 4 specialized field installations, and 44 foreign posts.  The FBI's total FY 2000 direct and reimbursable budget authority available was $3.2 billion.
This audit report contains the Annual Financial Statement of the FBI for the fiscal year ended September 30, 2000.  Under the direction of the Office of the Inspector General, KPMG LLP performed the audit, which resulted in an unqualified opinion.  An unqualified opinion means that the financial statements present fairly, in all material respects, the financial position and results of operations of the entity.  The FBI also received an unqualified opinion on its FY 1999 financial statements (OIG Report 00-15).
The FBI had two material weaknesses and one reportable condition in FY 2000 compared to three material weaknesses and two reportable conditions in FY 1999.  The material weaknesses were both repeat issues in the areas of the FBI's information systems controls and its ability to accurately account for and report on property and equipment.  The reportable condition is a new issue involving the FBI's purchasing application.  During FY 2000, the FBI was able to complete actions on previously noted concerns involving its ability to prepare timely financial statements and note disclosures.
In its Report on Compliance with Laws and Regulations, the auditors reported that the FBI's financial management systems did not substantially comply with the requirements of the Federal Financial Management Improvement Act of 1996.  The auditors specifically cited issues related to the two material weaknesses noted above as causing the noncompliance.
The FBI's financial statements consist of a balance sheet, statement of net cost, statement of changes in net position, statement of budgetary resources, and statement of financing.  Comparative financial statements were not required this year and are therefore not presented.